No. 19-1095
IN THE
SUPREME COURT OF THE UNITED STATES

James Beggs, Joyce Beggs, et ux Petitioners
Vs.
Beverly Story et al,
Respondents
On Writ of Certiorari
To the Virginia Supreme Court
Petition for Rehearing

Pro’se Mr. James Beggs
Pro’se Mrs. Joyce Beggs
312 South Willard Ave
Hampton, Virginia 23663
757265 7784
Family Attorney
Pro’se Joyce Beggs

1

Table of Contents
Table of Content

Page i

Constitutional, and Statutory Provisions
for Rehearing
Page ii
Table of Authorities Cited

Page ii

Petitioners for Rehearing

Page 1

Protecting the City of Newport News

Page 3

The All Writs Act,

Page 4

Justice Potter Stewart contributions to Civil
Rights Reform
Page 4
Reason for Granting Petitioners for Rehearing
En Banc
Page 10
Certificated Questions
Conclusion.

Page 8, 9
Page 12

u

Constitutional and Statutory Provision
Involved for Rehearing
U. S. C. 42 Section 1983
U. S. C. 42 Section 1985 (3)
Fifth Amendment
Fourteen Amendment
28 U.S.C. Section 1651,
U S Congress Codifier Honorable Mr. Tomas
Durant Original Historical Interpretation of
“Title 18 Section 242 after the Civil War”
U.S.C. Title 18 Section 242
U. S. C. Title 18 Section 241
U. S. C. Title 18 Section 254
Presidential Executive Proclamation Order
13625
The All Writs ACT codified under Title 28
Civil Rights Act of 1964
Table of Authorities Cited Cases in
Rehearing
USSC Record NO: 06-931 In Re Patterson-Beggs
USSC Record No.02-5307 In Re Patterson-Beggs •
Bulloch v. the United States, 763 F.2d 1115,
1121 (10th Cir. 1985)
Page 10, 18, 26
Griffin v. Breckenridge 403 U.S. 88 (1971)Page 4
Dovel v.Bertram,184 Va 19, 22, 34 S.F.2d.PagelO
Collins v. Hardyman,341 U.S. 651 (1951),.Page 8
Visikides V, Derr. 3 Va App 69 (1986) ...Page 25
William vs. Williams, 24, Va. App.778 783,435,
S.E. 2nd 651, 654, 413, (1997)............
Page 23
United States v. Harris, 106 U.S. 629
(1883).....................................................
Page 8
United States v. Ohio Power Co., 353 U.S. 98
(1957)
Page 9

1
Petitioner for Rehearing
Pursuant to Supreme Court Rule 44, and 44.1,
Petitioners need consideration of the full court
this Petition for Rehearing. That is very
necessary to secure and maintain uniformity of
Equal Rights Protections under Federal Laws
that involves many Questions of exceptional
importance to the Virginia Supreme Court and
other Virginia Courts involved in said complex
extraordinary cases decisions that conflicts with
major contributions of Criminal Justice and Civil
Rights reforms and authoritative decisions of the
Hon. Justice Potter Stewart and this Great Court.
Moving this Honorable Court to grant
this Petition for Rehearing En Banc that is filed
within 25 days of this Court’s decision in this case
James Beggs, et ux. V. Story et al No. 19-1095,
May 18, 2020 to Stay all Orders on the merits.
Citing controlling effects under Supreme Court
Rule 11 from the Fourth Circuit Court in case No.
19-1859. Awaiting the full Discretion before
Judgment in reviewing other substantial grounds
not previously present in light of new evidence of
Federal Constitutional Violations of Petitioners
Equal Rights Protections by a Private Comp; any
Respondent Cunningham Lindsey U. S. LLC,
f7k/a, Cunningham Linsey of Virginia Beach to be
added to this case in connections with the Private
Female Respondents in Conflict of Interest with
Federal Judge Arenda L. Wright Allen of the
Johnson Family from Petitioners Church and City
of Hampton under the Fifth Amendment and
Conspiracy under the Color of Law.

2

Moving this Court to Grant Reviewal of all
Orders against all Petitioners in light of New
Evidence. Vacating all Judgements Ordered to
Give “Said Child” Back to Petitioners to start
Catholic School for healing and returning “Said
Veteran” back to treatment at the V. A. for
Violations under U.S.C. 42 Section 1983 &
U.S.C. 18 section 245. Just because of hate
against a Black Republican, whom Loves her
Black Community.
Forced to take down
Republican Pictures in 2016 after giving up her
“Commenting at the Daily Press Delphi Forums”
Under the Name of Misjustice;
“Meaning When someone based on the
available evidence presented should have
been Responsible” but acquitted of Bad
Faith”, citing USSC Record NO: 06-931, In Re
Patterson-Beggs and USSC Record No. 02-5307
for Injuries of “Said Veteran” falling through a
floor with broken bones as Petitioner paid for
repairs before moving-in her Children. With
repairs costing less than 1,000.00; a pure Civil
Right Claim by a Privet Company. As Petitioner
Joyce Beggs took a Code Class with her City, to
learn to fix her Own Historical Home. Slowly
learning Contraband Slaves History were
Erased, along the City of Phoebus Promises to
keep the first 3 Contraband Slaves Properties
Protected before consolidation with the City of
Hampton Virginia that was not protections
under the Codifier Mr. Durant codification of
Title 18 Section 242 hired by Congress to Decode
after the Civil War.

3

Protecting the City Newport News
The Late Senator Jesse Helms help in placed
Petitioner Joyce Beggs in the Beautiful City
Newport News to be close to Fort Monroe after
lobbying for Battered Woman Rights and Female
Legislations, with the Love from all Political
Parties to. help research her Great Grand Father
who were a Proud Farmer, who got his freedom
from Fort Monroe. With true facts of Females
from all Political Parties” wanting to help all Law
Makers in Congress understand their mission.
Even giving Love to the Senators of the word NO.
But learning the reasoning behind the word No;
with thousands of us across the U. S. working hard
to find the 10% percent of “Battered Men”
victimized by females to get their Vote, receiving
much Love from their Staff Members & Supporters
to our Mission. Praying that women would not use
said Legislation to Abuses Man as feared by some
Law Makers. Given all members of Congress great
respect as my mother’s taught us.
Needing this Court to be a needed Aid to stop
said quite terrorizing conspiracy of Civil Rights
Violation in Petitioners Jurisdiction and protecting
the City of Newport News Virginia Court Systems
and that also saved the Life of Petitioner James
Beggs; after both Petitioners was poisoned in
Virginia Beach January 2018. Being turn down for
Emergency Medical Care from negative media
coverage, taken to this City of Pure Love that
saved his Life. Just to come home from surgery
facing a dog attack on his front porch as his cat
died saving his life.

4
The All Writs Act
Moving this Court for the “All Writ Act to
address all Privet Respondents from 4 different
Virginia State Courts that connects all
Conspirators together for reversal of all Orders
against all Petitioners, with Community Service
and Fines to Respondents under 1985 (3). Citing
Griffin v. Breckenridge 403 U.S. 88 (1971) in
addressing all Respondents Violations under the
Color of Law. Especially with “Said Child”
wrongful taken from Petitioners. Wrongly placed
in the Home of a Virginia Beach Social Workers
at the age of 6 months with severe Health
Problems that voided of her Human and Civil
Rights by Cruel and Unusual Treatment just to
support a GO Fund Me Page, with Conspirators
leaking false information to the media of her
Mother being shot to control “Said Child Estate”.
Knowing “Said Veteran” was being Physically
Evicted by a Female over 6th feet, and over 250
pounds.
Knowing “Said Veteran” was “Not the
Aggressor” saving himself and child. Knowing
the Identification of the Attorney handling the
Couple Evictions were never Revealed to the
Media or the Petitioners, nor Virginia Beach
Police Department. Knowing Virginia Beach'
Police cleared said child to stay with Petitioners
during their Investigation July 20, 2016.
Knowing Hampton Virginia Veteran Hospital
removed “Said Veteran” from his bedroom to
keep his family safe during Treatment for PTSD;
Fighting the War out in his Sleep.

5
Justice Potter Stewart Major Contributions
to Civil Rights Reforms
The Honorable Justice Potter Stewart finding
under section 1985(3) cause of actions against
Privet Conspiracies that Violate Federal
Constitutional Equal Rights Protection; were also
suffered by all Petitioners of willful actions.
Which must be learned behaviors by all
Respondents “who did not know” or “did not care”
their Conspiracy of 2 or more .People under the
color of law is a Federal Crimes. Said Rehearing
provides an opportunity for Chief Justice Roberts
and all Justices of this Supreme. Court to “Heal
all Citizens of the United States” by giving a clear
understanding over the “Codification History” of
USC Title 18 1 Section 242, by Mr. Thomas
Durant hired by Congress after the Civil War.
As these complex cases involves questions of
exceptional importarice under U.S.C. 42, Section
1985 (3) that also Protects Black Republicans and
“Men who are victimized by organized hate
groups; under other class-based animus cited by
Justice Stewart” by Privet Conspirators.
l SEC. 5577. Every person who, under color of any law,
statute, ordinance, regulation, or custom, subjects, or
causes to be subjected, any inhabitant of any State or
Territory to the deprivation of any rights, privileges, or
immunities, secured or protected by the Constitution and
laws of the United States, or to different punishments,
pains, or penalties, on account of such inhabitant being an
alien, or by reason of his color or race, than are prescribed
for the punishment of citizens, shall be punished by a fine
of not more than $1,000, or by imprisonment not more
than one year, or by both.

6

As Petitioner research shows of Mr. Durant
providing Federal Constitutional Protections &
Civil Rights of Equality to all Black Americans
freed by our Great President Abraham Lincoln
starting January 1, 1861, before the Civil War
Ended. Combined with Major Contributions to
Criminal Justice and Civil Rights Reforms by
Justice Stewarts; needs to be learned by the
American Citizens. Showing Pure American
Constitutional Legal Love from the Highest
Court. As the Petitioner Joyce Beggs Dyslexia
caused many “solitary days and weeks” to
complete this important history on Title 18 Sec.
242; compared Justice Clarence Thomas hours of
solitary in his Memoirs’ in “My Grandfather’s
Son”.
Review is also warranted for Petitioners
Rehearing for willful Fraud on the Court,2 citing
Bulloch v. the United States, along with other
Constitutional Violations Suffered meeting the
true requirements of the specific willful intent of
all said Privet Respondents in this case that
voided all Petitioners Equal Rights under the
United States Constitution under the Color of
Law.
2 Bulloch v. the United States, 763 F.2d 1115,
1121 (10th Cir. 1985) It is where the court or a member is
corrupted or influenced or influence is attempted or where
the judge has not performed his judicial function — thus ■
where the impartial functions of the court have been
directly corrupted."

7
As Female Respondents “on one accord” “Erase”
a U.S. Veteran Military Static 3 at the Veteran
Hospital developed by Said Chain Conspiracy
July 20, 2016”.
Moving, Honorable Justice Roberts and the
full U. S. Supreme Court to Grant Rehearing and
deiced said case if unable to wait for The Fourth
Circuit Court Ruling under Supreme Court Rule
11; citing Justice Stewards Civil Rights Reforms
in Griffin v. Breckenridge 403 U.S. 88 (1971), that
is very important to our society to bring about a
clear understanding and History of U.S.C. 18
Section 242 to help Americans Breathe Easier.
As Respondents Violated the Civil Rights Act of
1964 by using Petitioners Church and City under
U.S.C. 18 Section 241 & 242. Granting Justice to
the Petitioners whereas, adequate relief cannot be
obtained in any other form from Female
Respondents using Male Respondents and a New
Male Judge from the Virginia Beach Circuit
Court in case No. 181525 from Virginia Supreme
Court by improperly serving him with a
Mandamus for Respondent Paulette D. FranklinJenkins, to cover her alleged Fraud on the Courts
and Conspiracy plots with more than 2 females,
3. Upholding President Abraham < Lincoln Proclamation
stating; “To Care For Him Who Shall Have Borne The
Battle And For His Widow and His Orphan”. Bring about
a true understanding that Black Americans Life’s Matters
with their True History Protected without retaliation.

8

Petitioners research shows Justice Stewards
reforms on Civil Right provide a modern-day
construction of section 42 U.S.C Section 1985(3)
with Civil Rights Laws addressing private
deprivations under the Color of Law. Stopping
Privet Citizens from using Family Members and
themselves in destroying Equality under Law and
Federal Constitutional Protections from Congress
After the Civil War from learned behaviors that
had the power to Erased History of Contraband
Slaves, Major Butler of Fort Monroe, and Erased
Federal Protected Record USC 18 Section 245.
Whereas, Petitioners suffered Manipulations of
True Facts hidden from Virginia Beach Police
investigation July 20, 2016 and Virginia Beach
Judges.
Showing someone willfully removed
Personal Items and Medical information from
“Said Veteran Home in Virginia Beach, before
Police were called to the Scheme. Worse than
found in Collins v. Hardyman, 341 U.S. 651
(1951), and United States v. Harris as both cases
moved our Congress to pass 42 U.S.C. Section
1985(c) under federal tort law. As shown in these
complex cases of conspiracies more than 2 Privet
Female
with
Respondents
Respondents
Cunningham Lindsey U. S. LLC. f/k/a
Cunningham Linsey of Virginia Beach, and
Respondent Afshin Farashahi. Bring Forth the
Certified Question; “Whether violations of the
“prejudice prong of Strickland" under the Six
Amendment caused Cruel and Unusual
Treatment to all Petitioners.”

9

Petitioners research shows this Supreme Court
upheld Section 1985 (3)., for Private Conspirators
who willful actions Lead to Petitioner Certified
Questions:
“Was a Veteran deprived of continued
Mental Health Care from a War Zone under
President Obama Executive Order 13625 by
Conspiracy Under Title 18, U.S.C., Section
241 & 242, to void bis Emergency Custody,
Guardianship and Adoption.
Therefore, Rehearing should be Granted for
new evidence of Conflict of Interest and Abuses
of Power under Section 1985 (3) and U.S.C. 18
section 241, 242, 245 allegedly showing all
Respondents shared a Roll or Part in Conspiracy
to misuse Virginia Court Systems of Law and
willfully Terrorizing all Petitioners, citing
United States v. Ohio Power Co., 353 U.S. 98
(1957).
Needing review as all cases arising out of the
same at this Court Discretion. Giving Chief
Justice Roberts and the Honorable Justices of
this Highest Court the needed foundation of Title
18, U.S.C., Section 242 to be an Aid to the
Petitioners Jurisdiction and Protect the
Beautiful City and Courts of Newport News from
being affected by said Chain Conspiracy that
Yoids Federal Constitutional Rights under the
Color of Law.

10
In willfully in plotted conspiracy under the
Color of Law causing all Petitioners to suffer
along with other class-based animus as a MixedRace Couple. While New Evidence show
Respondents plotted to destroy the Petitioners
Historical Home that is protected under the Fifth
Amendment. Citing Dovel v. Bertram, 184 Va 19,
22, 34 S.F.2d
Reason for Granting Petitioners
Pursuant to U.S. Supreme Court Rule 11.
Petitioners has satisfied the Requirement of their
Extraordinary Writ of Certiorari to the U S
Fourth Circuit Court before Judgment in Record
No: 19-1859 throughinby Rehearing Request
before Judgement is entered against Respondent
Cunningham Lindsey U. S. LLC, f/kla
Cunningham Linsey of Virginia Beach.
Wherefore Under section U. S. C. 42 Section
1983 U.S.C. & 42 section 1985 (c), Respondents
willfully used Petitioners Factual information in
their pleading in Virginia Beach from July 20,
2016 up to the Virginia Supreme Court with
Conspiracy Plots towards all Petitioners under
the Color of Law.
Especially the True Facts clearly point-out
“Said Veteran” Prayed for his Fiance’s at
Petitioners Phoebus Methodist Church in
Hampton before July 20, 2016.

11
Most Importantly that Petitioner Joyce Beggs
is almost the Only Black Republican attending
said Church at the Phoebus Methodist Church.
Following in the footsteps of her Great .Grand
Father who also Prayed on this Historical
Property at the Mouth of Fort Monroe. ‘As their
first Church was built with “Wood from the Ruin
of the Former Chesapeake City” burned down to
keep from the Union.
Suffering Cruel and Unusual treatment by
Respondents from Virginia. Beach, Virginia,
misusing Petitioners Beautiful Church* City and
Citizens of Hampton Virginia, . Voiding the
Protections under Civil Rights Act Laws of 1964.
While illegally removing Black History from
Petitioners Historical Home with-put Due
Process while Respondent Cunningham Lindsey
U. S. LLC, f/k/a Cunningham Linsey of Virginia
Beach willfully took advantage of Hampton City
Black Mayor to lower Petitioners Home Value to
denied them assistance under the Federal of,
FEMA during Hurricane Mathews 2016 by a
Fraudulent Contract they could not sign. Forced
to use their own funding.
Showing people in our Society cannot
decide which Black Americans gets Federal
Constitutional Rights or which Black Americans
can Enjoys Federal Civil Rights.
> ,
'*

12
Conclusion
Whereas, these extraordinary cases involve
substantial grounds not previously presented
under U.S.C. 42 Section 1985 (3) U.S.C. Title 18
Section 245, with controlling grounds of U. S.
Supreme Court Rule 11 from the Fourth Circuit
Court Case No. 19-1859 in light of New Evidence
of said Respondents interfering with Petitioners
Church Members to secure a Federal Judge.
Causing a Conflict of Interest to void Federal
Civil Right by Privet Conspirators that is very
quiet and organized by Abuses of Powers.
Having the ability to wipe out Constitutional
Rights of any Black American and Black
Republicans, and Black Professionals or any
person who is hated with conspiracy plots on one
accord by 2 or more people.
Needing A Writ of Certiorari, to the Virginia
Beach Supreme Court:
1. The Virginia Beach Circuit Court
Commonwealth Vs. Cornelius Courtney Beggs”
No: CR17-001285 OCA File Number VAB 1605667 for Respondent Attorney Afshin Farashahi.
Denied “Said Veteran” his Trial Dated of August
20, 2019, set on the Birthday of “Said Veteran
Late Fiance’s Late Lysa Story”. Who he Loved
and Prayed for at Petitioners Church before July
20, 2016; by ineffective Counsel of Record. Denied
his Rights to Appearance before Judge to select
his own Court Date. With Petitioners trusting
him with Veteran Medical Records that contain
Military Locations in Afghanistan from Hampton
Virginia Veteran Hospital.

13
That voided out a President Obama Executive
Order 13625 2012; Reinstated by President
Trump.
2. To Address Newport Ne\ys Circuit Court of
Norfolk Case No: 4ti7-cy-00110-AWA-DEM, for
Respondent Cunningham Lindsey U. S. LLC,
f/k/a Cunningham Linsey of Virginia Beach
Conflict of Interest with Federal Judge Arenda
L. Wright Allen, under Title 42 section 1982,
1985 (3), Abuses under the Civil Rights Act of
1964, Violations under Title 18 section 241 and
242 by a Privet Company in Record No. 19-1859
with other Respondents in this Case No. 19-1095.
3. To Address the Virginia Beach Juvenile and
Domestic Court Case No: JJ216264-01-00, & 02- .
00, Record No: JJ216274-04-00,' and Record No:
CJ17-63 Minor Case for Fraud the Court by
Respondents, and unidentified Parties.
As Female Respondents Erased “Said
Veteran” Military Medical History being July 20,
2016 from Petitioners, the Media and Virginia
Beach Courts, and Virginia Beach Police.
Slowly understanding Mr. Kaepernick Peaceful
Mission to Bring Awareness to an Invisible
Organized Problems Black Man or facing from
their own Jurisdictions.

14
As Petitioners holds up the American Flag for
him, with the strengths of the Historical Ink
used by President Lincoln to Free all Black
Americans by the signing of the Emancipation
Declaration, by upholding highly the United
States Constitution with; the Modern Reforms of
Civil Rights by Justice Stewards and this
Honorable Court. Going back to the codification
of Mr. Durant under section 242 with the Love of
our U.S. Congress as on body.
Whereas Petitioners Rehearing should be
Granted.
Certification of Good Faith
The Petitioners hereby certifies that this Petition for
Rehearing is restricted to the grounds specified in Rule
44.2 of the Rules of the Supreme Court and is presented
in good faith and not for delay.
Respectfully
Pro’se Petitioner James Beggs
/Signature________ .__
Pro’se Petitioner Joyce Beggs/Signature
312 South Willard Ave
Hampton, Virginia 23663
757 265 7784

